I
I

i
No.

IN THE
SUPREME COURT OF THE UNITED STATES

MICHAEL MURPHY

— PETITIONER

(Your Name)

VS.
RICHARD SARTA,ET AL

— RESPONDENT(S)
PROOF OF SERVICE

I,

MICHAEL MURPHY ,PRO SE

, do swear or declare that on this date,
, 20121, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
AUGUST 13

The names and addresses of those served are as follows:
KEN WARD, ATTORNEY FOR RESPONDENT
TRAMMELL,ATKINS,AND WARD

P.O.BOX 51450

KNOXVILLE,TN 37950
I~DECLARE THAT THE PETITION COMPLIES WITH THK WORD L1M11A11UN,AND

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

August 13

,20_ii

(Signature/ /

